LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-874:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 19, 2020

WILLIAM ALAN PESNELL AND CHRISTOPHER HOLDER, THROUGH HIS CURATOR, GARY HOLDER V. JILL
SESSIONS, CLERK OF COURT, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners on March 19, 2020 I caused service to be made
pursuant to Rule 29 on the following Respondents and counsel for Respondents:
RESPONDENT JILL SESSSIONS:
Elizabeth Baker Murrill
Office of the Attorney General
P.O. Box 94005
Baton Rouge, Louisiana 70804-9005
225-326-6766
murrille@ag.louisiana.gov
Glenn L. Langley
Julianna Parks
Langley, Parks & Maxwell LLC
401 Market Street #1100
Shreveport, Louisiana 71101
318-383-6422
glangley@lphmlaw.com
jparks@lphmlaw.com
James D. Southerland
P.O. Box 338
Benton, Louisiana 71006
318-965-2316
souther1@bellsouth.net
Jill Sessions
Bossier Parish Clerk of Court
P.O. Box 430
Benton, Louisiana 71006-0430
318-965-2336
clerk@bossierclerk.com

RESPONDENT 26th JUDICIAL
DISTRICT COURT JUDGES:
Emily G. Andrews
David G. Sanders
Louisiana Department of Justice
P.O. Box 94005
Baton Rouge, Louisiana 70804
225-326-6000
sandersd@ag.louisiana.gov
andrewse@ag.state.la.us
Hon. Eric R. Harrington
c/o 26th Judicial District Court
204 Burt Blvd.
Benton, Louisiana 71006
318-965-2336
judgeharring@cp-tel.net

RESPONDENT COURT OF
APPEAL CLERK:
Lillian Evans Richie
Judicial Administrator/Clerk of Court
Second Circuit Court of Appeal
430 Fannin Street
Shreveport, Louisiana 71101
318-227-3700
lrichie@la2nd.org
Supreme Court of Louisiana
400 Royal Street
#4200
New Orleans, Louisiana 70130
504-310-2300
webmaster@lasc.org

RESPONDENT JENNIFER
BOLDEN:
Patrick R. Jackson
4442 Viking Drive, Suite 100
Bossier City, Louisiana 71111
318-752-3335
PJackson@bossierlawoffice.com
Schuyler Marvin
410 Main Street, Room 204
Minden, Louisiana 71055
318-965-3716
smarvin@26thda.org

This service was effected by depositing three copies of the Reply to the Opposition Filed by Jennifer Bolden in an
official "first class mail" receptacle of the United States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 19th day of March 2020.

